HHS/OIG, Audit -"Review of the State of North Carolinas Efforts to Account for and Monitor Sub-Recipients Use of Public Health Preparedness and Response for Bioterrorism Program Funds, North Carolina Division of PublicHealth,"(A-04-03-01009)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the State of
North Carolinas Efforts to Account for and Monitor Sub-Recipients Use
of Public Health Preparedness and Response for Bioterrorism Program Funds, North
Carolina Division of Public Health," (A-04-03-01009)
October 17, 2003
Complete
Text of Report is available in PDF format (504 kb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the North Carolina Division of Public Health
(North Carolina) generally accounted for program funds ($25.1 million received
for the 4-year period ending August 30, 2003) in accordance with the terms
and conditions of the cooperative agreement with the Centers for Disease Control
and Prevention (CDC) and applicable departmental regulations and guidelines.
Specifically, North Carolina recorded, summarized and reported transactions
by specific focus area.  In addition, North Carolinas monitoring procedures
for contracts and its advanced accounting system facilitated the tracking and
monitoring of subrecipient activities and expenditures.  Further, North
Carolina officials indicated that CDC funding had not been used to supplant
programs previously funded by other organizational sources.  We recommended
North Carolina:  (1) develop written policies and procedures for tracking
the Program fund activities within the financial accounting system; and (2)
implement plans to increase the coordination of monitoring activities for subrecipients
of the Program.  North Carolina concurred with our findings and recommendations
and is taking corrective actions to improve its bioterrorism grant program.